No. 19-1031
In the

Supreme Court of the United States
ERIN CAPRON; JEFFREY PENEDO; CULTURAL
CARE, INC., d/b/a CULTURAL CARE AU PAIR,
Petitioners,
v.
OFFICE OF THE ATTORNEY GENERAL OF THE
COMMONWEALTH OF MASSACHUSETTS; MAURA
T. HEALEY, in her capacity as Attorney
General of the Commonwealth of
Massachusetts,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the First Circuit

BRIEF OF THE ALLIANCE FOR
INTERNATIONAL EXCHANGE AS AMICUS
CURIAE IN SUPPORT OF PETITIONERS
Thomas B. Quinn
Nathan A. Huey
Gordon Rees Scully
Mansukhani LLP
555 Seventeenth Street,
Suite 3400
Denver, CO 80202
(303) 534-5160

Leslie A. Benitez
Counsel of Record
Gordon Rees Scully
Mansukhani LLP
816 Congress Avenue,
Suite 1510
Austin, TX 78701
(512) 391-0197
lbenitez@grsm.com
Counsel for Amicus Curiae

295299

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether federal law preempts the application of
state and local labor laws to the terms and conditions of
participation in the federal au pair program.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
INTEREST OF THE AMICUS CURIAE . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY
OF ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

The First Circuit’s Decision Will Destroy
the Nationwide Nature of the Au Pair
Program and Damage the Goals of Cultural
Exchange and Mutual Understanding  . . . . . . . . 6

II. The First Circuit’s Decision Will Destroy
Impor t a nt A spec t s of t he Au Pa i r
Program  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
III. T he F i r st C i r c u it ’s D e c i s ion W i l l
Create Insurmountable Administrative
Problems for Host Families that Would
Discourage Participation . . . . . . . . . . . . . . . . . . . 10
IV. T he F i r st C i r c u it ’s D e c i s ion W i l l
Negatively Impact Sponsors’ Participation
in the Program . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

iii
Table of Contents
Page
V.

The Negative Effects of the First Circuit’s
Decision Already Are Being Felt . . . . . . . . . . . . 13

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Beltran v. InterExchange, Inc., et al.,
No. 1:14-cv-03074 (D. Colo.) . . . . . . . . . . . . . . . . . . . . . 5
Cultural Care, Inc. v. Office of the Attorney
General of the Commonwealth of
Massachusetts, et al.,
No. 1:16-cv-11777 (D. Mass.)  . . . . . . . . . . . . . . . . . . . . 5
Maldonado v. Cultural Care, Inc.,
No. 1:20-cv-10326 (D. Mass.) . . . . . . . . . . . . . . . . . . . 13
Muñoz v. Au Pair Care, Inc., et al.,
Civil Action No. 2020-82
(Mass. Sup. Ct., Middlesex Cty) . . . . . . . . . . . . . . . . 13
Statutes and Other Authorities
29 U.S.C. § 206(a)(1)(C)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
22 C.F.R. § 62.13(j)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
22 C.F.R. § 62.31(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 11
22 C.F.R. § 62.31(c)-(m)  . . . . . . . . . . . . . . . . . . . . . . . . . . 12
22 C.F.R. § 62.31(j)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 10
940 C.M.R. § 32.00 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

v
Cited Authorities
Page
940 C.M.R. § 32.02 . . . . . . . . . . . . . . . . . . . . . . . . . 8, 10, 11
940 C.M.R. § 32.03 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
940 C.M.R. § 32.03(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
940 C.M.R. § 32.03(5)(c)  . . . . . . . . . . . . . . . . . . . . . . . . . 11
940 C.M.R. § 32.04(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
940 C.M.R. § 32.04(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
M.G.L. ch. 149, § 190  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
M.G.L. ch. 149, § 940  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
M.G.L. ch. 151, § 1  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
59 Fed. Reg. 64,298  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
60 Fed. Reg. 31 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 8, 10
60 Fed. Reg. 31 8547 (Feb. 15, 1995)  . . . . . . . . . . . . . . . . 8
115th Cong. 1st sess. S. Res. 357 (12/12/17) . . . . . . . . . . . 2

1
INTEREST OF THE AMICUS CURIAE
The Alliance for International Exchange (“The
A lliance”) is an association of approx imately 9 0
nongovernmental organizations, including Petitioner
Cultural Care, Inc., comprising the international
educational and cultural exchange community in the
United States. Founded in 1993, the Alliance serves as
the only collective public policy voice of the exchange
community. Among its members are entities designated
by the Department of State (“DOS”) to sponsor the J-1
visas of au pair program participants. As the voice of
international exchange in the United States, the Alliance
promotes the growth and impact of exchange programs
by engaging in advocacy, providing member development
opportunities, and building public awareness of the power
of exchange. In so doing, the Alliance seeks to further the
mission mandated by the Fulbright-Hays Act: “increasing
mutual understanding between Americans and others
through people-to-people contact.” 60 Fed. Reg. 31 at
8547 (Feb.15, 1995).1
The experience and relationships gained through
international exchange are essential to furthering mutual
understanding and international cooperation between
peoples. Data shows that foreign exchange participants
complete their programs with a better impression of their
1. Pursuant to Rule 37.6, amicus affirms that no counsel for
a party authored this brief in whole or in part and that no person
other than amicus, its members, and its counsel made a monetary
contribution to its preparation or submission. Counsel of record
for all parties received notice at least 10 days prior to the due date
of the intention of amicus to file this brief. All parties consented
to the filing of this brief.

2
host country and its people. U.S. ambassadors consistently
rank exchange programs among the most useful catalysts
for long-term political change and mutual understanding.
See, e.g., United States. Cong. Senate. Resolution
Expressing the sense of the Senate that international
education and exchange programs further United States
national security and foreign policy priorities, enhance
United States economic competitiveness, and promote
mutual understanding and cooperation among nations,
and for other purposes. 115th Cong. 1st sess. S. Res. 357
(12/12/17) https://www.congress.gov/bill/115th-congress/
senate-resolution/357/text.
The First Circuit’s decision, which holds that
the Massachusetts Domestic Workers Bill of Rights
(“DWBOR”) 2 is not preempted by federal law and
regulations governing the au pair program, threatens the
very existence of the federal au pair program. It already
is frustrating the purpose of the Fulbright-Hays Act by
all but eliminating the foundational cultural exchange
element, destroying the DOS’s policy of uniformity, and
focusing the program on wage earning rather than peopleto-people exchange. Further, the Massachusetts Act will
discourage host families from spending time interacting
with their au pairs (a primary purpose of the program),
lest they be required to pay the au pair for time spent with
the family that state law classifies as work hours. Mutual
understanding and international cooperation—the goal
behind the program—necessarily will suffer as a result.
The Court should grant certiorari to reverse and
prevent the spread of these deleterious effects.
2. The DWBOR and its implementing regulations are found
at Mass. Gen. Laws ch. 149, § 190 and 940 CMR §§ 32.00, et seq.

3
INTRODUCTION AND SUMMARY
OF ARGUMENT
The First Circuit’s decision, reported at 944 F.3d 9,
ignores fundamental conflicts between the Massachusetts
law it upholds, and the carefully calibrated federal statutes
and regulations that have governed the au pair program
since its inception. It also ignores the views of the DOS,
which the First Circuit sought before issuing its decision.
In so doing, the First Circuit has dealt a crippling blow to
the uniformity upon which the program relies by opening
the door to application of an incongruent patchwork of
state and municipal laws and regulations.
By allowing state and local laws to supersede the
federal regulations that historically have governed the au
pair program, the First Circuit’s decision will essentially
require that different wages are paid to au pairs in
different states, which will encourage au pairs to prefer
host families from higher wage states and localities to the
detriment of host families from lower wage states. Lower
income families in higher wage states will struggle to
participate in the program. Confining the au pair program
to a privileged slice of American society—high income
families in high wage locations—is directly contrary to
the purpose of cultural exchange. It deprives families
with lower incomes, and those from lower wage areas,
of an important cultural exchange opportunity, while
simultaneously depriving au pairs of unique experiences
they might have with such families.
Similarly, application of DWBOR and other state laws
mandating compensation of workers for all time they are
required to spend on the employer’s premises threatens

4
to upend the program by rendering it prohibitively
expensive. Federal regulations limit au pairs to 45-hours
of work per week, but also require au pairs to live with
their host families. Host families cannot possibly comply
with both state and federal law under such circumstances,
as few families can afford to pay their au pairs for nearly
every hour of every day. These and similar negative effects
already are being felt. Emboldened by the First Circuit’s
decision, plaintiffs already have named members of The
Alliance in new lawsuits, with more litigation expected—
and at least one member already has stopped placing au
pairs in Massachusetts.
Allowing the First Circuit’s decision to stand while
additional lawsuits work their way through the courts will
result in continued and perhaps irreparable damage to the
au pair program and its foreign policy goals. Certiorari
should be granted.
ARGUMENT
The First Circuit’s decision to uphold application of
the Massachusetts Domestic Workers Bill of Rights to the
au pair program conflicts with the principal purpose for
which the federal program was designed and conflicts with
federal regulations. If the First Circuit’s decision stands,
it will effectively destroy the program by allowing every
state—and potentially every city or county within each
state—to apply its own conflicting laws.
As stated by U.S. Representatives Robert Goodlatte
and Edward R. Royce in a July 26, 2017, letter to then
Secretary of State Rex Tillerson prior to the First Circuit’s
decision, “allowing state and local governments to enact

5
thousands of potentially conflicting regulations governing
the federal au pair program would be untenable and would
likely result in the death of this valuable program.” See
Cultural Care, Inc. v. Office of the Attorney General of
the Commonwealth of Massachusetts, et al., No. 1:16cv-11777 (D. Mass.), Goodlatte and Royce Letter to Sec.
Tillerson (D.E. 40 at Ex. 1) (Aug. 15, 2017). Stanley Colvin,
former attorney-advisor to the United States Information
Agency and the DOS, and a former Deputy Assistant
Secretary of State for Private Sector Exchange—and the
principal author of the formative federal au pair program
regulations—explained that:
Uniformity was and is required because the
Exchange Visitor Program, including the Au
Pair Program, is a foreign affairs function of
the United States Government implemented
nationwide. Lack of uniform implementation
necessarily raises the spectre of negative
foreign diplomatic relations, which in turn
would undermine the purpose of the Au Pair
Program and its foreign relations value.
See Beltran v. InterExchange, Inc., et al., No. 1:14-cv03074 (D. Colo.), Colvin Declaration (D.E. 861-1 at 59-68,
¶ 14) (Feb. 16, 2018).
Destroying the uniformity established (and required)
under federal law and regulations would have numerous
negative consequences for the au pair program and
its important foreign policy purpose of furthering
international relations. Indeed, the decision already is
having a significant and deleterious impact on the citizento-citizen aspect of U.S. domestic diplomacy furthered by
the au pair program.

6
I.

The First Circuit’s Decision Will Destroy the
Nationwide Nature of the Au Pair Program and
Damage the Goals of Cultural Exchange and
Mutual Understanding

The fixed stipend paid by host families to their au
pairs is based on a formula that incorporates the federal
minimum wage as set forth in the Fair Labor Standards
Act. See 22 C.F.R. § 62.31(j)(1). The current Federal
minimum wage is $7.25 an hour. 29 U.S.C. § 206(a)(1)(C).
The Massachusetts minimum wage, in contrast, is $11.00
an hour. M.G.L. ch. 151, § 1. Massachusetts is not alone.
According to the U.S. Department of Labor, twenty-nine
states, the District of Colombia, Guam, and the Virgin
Islands have a minimum wage that exceeds the federal
minimum wage. See https://www.dol.gov/whd/minwage/
mw-consolidated. htm (last visited March 16, 2020).
Sixteen states and Puerto Rico have minimum wages that
mirror the federal minimum wage and five states are silent
on the subject. Id. See also http://laborcenter.berkeley.
edu/ minimum-wage-living-wage-resources/ inventoryof-us-city-and-county-minimum-wage-ordinances/ (last
visited March 16, 2020) (listing more than 50 counties and
municipalities with minimum wage ordinances).
Requiring host families to pay au pairs different
wages depending on their states (or cities/counties) of
residence would have significant consequences. For
example, it would create a powerful incentive for au pairs
to favor placement in the states, cities, and counties—like
Massachusetts—with a minimum wage that exceeds the
federal requirement. Understandably, au pairs would
likely prefer such locales, and attempt to avoid lower wage
states. The federal program requires that host families

7
provide au pairs with room and board regardless of where
the host family resides. As required by federal regulation
(see 60 Fed. Reg. 31) the room and board offset to wages
is a set amount, regardless of its actual value. Therefore,
the traditional argument for increased minimum wage (the
higher cost of living in a particular jurisdiction) is largely
irrelevant to au pairs, who cannot under the federal au
pair regulation bear such costs.
Further, the combination of an increased wage and
what are often more desirable (or perhaps just betterknown) locations provides a disincentive for au pairs to
accept placements in lower wage jurisdictions. If state
and local wage laws are allowed to preempt federal law,
as the First Circuit has held, au pairs as a group will be
deprived of experiencing the cultures of certain states,
limiting the citizen-to-citizen connection and affording
contact only with a rarified portion of the diverse United
States. Similarly, prospective host families in the lower
wage jurisdictions would be deprived of exposure to the
diverse cultures that au pairs provide during their time
in the U.S. Such state and local laws would thus diminish
the scope of cultural exchange Congress intended.
In short, applying the minimum wage laws of each
state/locality to the au pair program will shift the focus
of the program from cultural exchange to wage-earning,
divert the program to host families in higher wage
jurisdictions (or eliminate such jurisdictions altogether,
given the inability to comply with both state and federal
law simultaneously), and deprive both au pairs and
prospective host families of the citizen-to-citizen contact
that is integral to improving international understanding
that the au pair program was designed to provide. Indeed,

8
the very fact that the au pair program resides with the
U.S. Department of State, rather than the Departments
of Labor or Homeland Security is reflective of its primary
purpose: building international relationships. Allowing
political subdivisions to pick apart this cohesive federal
program will necessarily transform these individual
ambassadorships into nothing more than ster ile
employment relationships, defeating the program’s goal
and leading to its demise.
II. The First Circuit’s Decision Will Destroy Important
Aspects of the Au Pair Program
A crucial aspect of the au pair program’s goal of
cultural exchange is that au pairs live with their host
families so that they can “participate directly in the home
life of the host family.” 22 C.F.R. § 62.31(a). The intent is to
“increase mutual understanding between Americans and
others through people-to-people contact.” 60 Fed. Reg. 31
at 8547 (Feb. 15, 1995). To further this goal, DOS requires
that the host family “include the au pair whenever possible
in family meals, outings, holidays and other events.” See
https://j1visa.state.gov/programs/au-pair#hostsemployers
(last accessed March 16, 2020).
DWBOR, however, requires that domestic workers
be compensated for all time they are required to be on
the employer’s premises. Under that law, employers may
deduct limited amounts for room and board only if the
room and board are “voluntarily and freely chosen” by
the domestic worker and agreed to in writing, 940 CMR
§§ 32.02, 32.03. Applying this and similar laws enacted
across the United States will result in destruction of the
program and its intent to facilitate, on a personal level,
international relations and global understanding.

9
As an initial matter, applying to au pairs the DWBOR
provision requiring compensation of domestic workers
for all time they are required to be on the employer’s
premises would violate federal law, which allows au pairs
to work no more than 45 hours per week and requires
them to live and engage as much as possible (including
during non-working hours) with the host family. DWBOR
requires host families to categorize as “hours worked”
the time an au pair spends eating dinner with the family,
playing a board game together, time spent discussing their
respective cultures, and the hours au pair spends sleeping
“on the premises.” Under federal law, au pairs have no
choice but to reside on the host family’s premises; and
host families have no choice under the federal regulations
but to require au pairs to live and board with the family.
This incompatibility between the federal programmatic
requirements and Massachusetts wage law is just one
example of why federal law alone must control the issue
of wages, room, and board provided and paid to au pairs.
Beyond the violation of federal law imposed by the
Massachusetts mandate, because au pairs would have to
be paid for almost 24-hours out of every day, few families
will be able to participate in the program. The expense,
combined with the impossibility of complying with the
federal law’s room/board and 45-hour work week mandate
in Massachusetts, effectively will eliminate the au pair
program in the state and in other locations with similar
laws.

10
III. T he Fi r st Ci rcuit’s D e cision Will C r e at e
Insurmountable Administrative Problems for Host
Families that Would Discourage Participation
The au pair program was designed with uniformity
and paperwork simplicity in mind to create a system that
is “fair to host families and au pairs.” 60 Fed. Reg. 31 at
8551. For example, the stipend mandated under federal
law is based on 45 hours of child care services per week,
regardless of whether fewer hours are performed. Federal
law prohibits au pairs from exceeding the 45-hour/week
maximum; DWBOR allows domestic workers to work
additional hours (beyond the 45 allowed by au pairs) at
an overtime rate of pay, another tension between the two
laws. The 45-hour stipend rate does not decrease if the
au pair spends less time on child care, nor does it require
documentation of the costs associated with room and board.
22 C.F.R. § 62.13(j)(1). In contrast, the Massachusetts
regulations impose a significant administrative burden
on host families.
Instead of paying a predetermined weekly stipend,
host families trying to determine the appropriate wage
under DWBOR will be required to calculate the amount
of “working time” (including meal periods, rest periods
and sleep periods, absent a written agreement to exclude
such periods from working time), 940 CMR § 32.02, and
multiply the number of weekly hours of working time by
the Massachusetts minimum wage, 940 CMR § 32.03(3).
Two aspects of DWBOR are prohibited under the
federal au pair program regulations: (1) the DWBOR’s
requirement that employer’s track and deduct the cost of
each meal (if the au pair voluntarily and freely agrees to

11
that deduction in writing), compare 940 CMR § 32.02 with
59 Fed. Reg. 64,298; and (2) the DWBOR’s requirement
that an employer must calculate and deduct the actual cost
of lodging up to certain limits (if the au pair voluntarily
and freely chooses to accept lodging from the host family),
compare 940 CMR § 32.03(5)(c) with 22 C.F.R. §62.31(a)
and 59 Fed. Reg. 64,298-99. A host family also will be
required to maintain detailed records of wages and hours
for three years, 940 CMR § 32.04(2), as well as records
of its written agreements with their au pair that cover
everything from lodging and meals, to sick days and the
process for raising and addressing grievances, 940 CMR
§ 32.04(3).
Host families who wish to welcome an au pair for
purposes of cultural exchange should not be deterred
by this onerous burden. Requiring them to comply with
DWBOR not only runs contrary to federal regulations,
but also will discourage participation in the au pair
program, frustrating its foreign policy goals of promoting
international cultural exchange and mutual understanding.
IV. The First Circuit’s Decision Will Negatively Impact
Sponsors’ Participation in the Program
The mission of the Alliance, whose membership
includes entities designated by the DOS to sponsor the J-1
visas of au pair program participants, is to promote the
growth and impact of international exchange programs
as part of the DOS’s larger foreign policy initiative. In
addition to DWBOR’s impact on host families and au
pairs, it also is likely to have foreseeable and unforeseen
negative consequences for the au pair program sponsors.

12
Federal regulations charge sponsors with a number
of responsibilities. See generally 22 C.F.R. § 62.31(c)-(m).
These include placing au pairs with eligible host families,
limiting au pair participants to no more than 10 hours of
child care services per day up to a maximum of 45 hours
per week, providing orientations for host families and au
pairs, and monitoring program participants. Application
of the labor and employment laws of all states and their
political subdivisions to the au pair program—many of
which are contrary to the governing federal regulations—
inappropriately enlarges this oversight responsibility
and requires sponsors to develop and maintain expertise
about not just the federal laws applicable to au pairs,
but also the laws of all 50 states and innumerable cities
and counties. Sponsors, who presently are governed by
and assist in implementing federal law, may themselves
face laws in other political subdivisions (including
DWBOR) that contradict federal mandates. To fulfill their
obligations to host families and au pairs, sponsors may be
required to assist in enforcing a panoply of potentially
contradictory local, state and federal laws. They will have
to explain to an au pair in Nebraska why her wages are
less than those of a peer in Massachusetts, and explain
to a Massachusetts au pair why she cannot participate
in more host family-centered activities, all of which may
have federal diplomatic repercussions. The First Circuit’s
decision, particularly given the likelihood of its expansion
if other courts follow suit, would frustrate the foreign
policy goals of the au pair program and shrink, rather
than foster, international exchange. 3
3. Despite the First Circuit’s assertion that relevant state
laws do not conflict with the applicable federal laws because the
latter apply only to sponsors, while the former apply only to host

13
V. The Negative Effects of the First Circuit’s Decision
Already Are Being Felt
The negative effects described above are not
theoretical. Instead, these effects are occurring now and
are impacting au pairs, host families, and sponsors alike.
Indeed, at least one member of the Alliance, EuAupair,
already has suspended its operations in Massachusetts
as a result of the First Circuit’s decision. See https://
w w w.wgbh.org/news/ local-news/ 2020/02/05/ citinglabor-law-ruling-au-pair-agency-suspends-operationsin-massachusetts?fbclid=IwAR03O_mPX7is_fnrGKdq
vMfOd6m3ZhTJ97RSp7z57F9DJbaedZC2Dw6vrls(la
st visited March 16, 2020). Other sponsors also may be
forced to suspend operations in states with employment
laws that affect the au pair program if the First Circuit’s
decision is not reviewed and reversed. Moreover, at least
two lawsuits already have been filed against members of
The Alliance as a result of the First Circuit’s ruling. The
first, Muñoz v. Au Pair Care, Inc., et al., Civil Action No.
2020-82 (Mass. Sup. Ct., Middlesex Cty), is a January 9,
2020, lawsuit filed by a former Massachusetts au pair on
behalf of herself and approximately 500 putative class
members, which seeks at least $10 million in back pay.
See https://www.universalhub.com/2020/au-pair-suesback-pay-after-court-rules (last visited March 16, 2020).
The second, Maldonado v. Cultural Care, Inc., No. 1:20cv-10326 (D. Mass.), is a February 19, 2020, collective
action for alleged violations of the Fair Labor Standards
families, Respondents have publicly announced their intention to
enforce the Massachusetts Act against the sponsors. App.27, 29,
49-50, 62-63.

14
Act filed by plaintiffs from Massachusetts, New York and
California. See https://www.law360.com/employment/
articles/1245270/-au-pair-co-hit-with-flsa-suit-after-1stcirc-wageruling?copied=1 (last visited March 16, 2020)
and https://www.reuters.com/article/employment-aupairs/
au-pair-agency-accused-of-stiffing-consultants-on-otpay-idUSL1N2AJ21W (last visited March 16, 2020). The
Alliance anticipates that the number of lawsuits will
continue to grow, further threatening the viability of the
federal au pair program.
Host families have already been affected by the
First Circuit’s decision. In a recent Alliance member
survey, sponsor agencies reported that host families have
expressed concerns regarding:
• Increased cost of hosting an au pair;
• Seeking alternative care due to uncertainty,
restrictions, and emotional investment in a
fundamentally altered au pair program;
• Hosting an au pair increasingly feels like an
employer/employee relationship, rather than a
familial/cultural exchange relationship.
On average, those members of The Alliance who responded
to the informal survey estimated that 31 percent of host
families in Massachusetts will leave the program in 2020
as a result of the First Circuit’s ruling, and that there
will be a corresponding 76 percent reduction in new
Massachusetts host family placements. Already, many
Massachusetts-based au pairs had to be placed with new
families because their original host family could not afford
to continue in the program.

15
Au pairs are spending less time with their host
families because host families fear that any interaction
will be viewed as compensable work time. This fear has
resulted in a diminution of the participants’ cultural
exchange, which was the main impetus for creating this
foreign policy program in the first place. The vast majority
of Alliance members estimate that, due to the dearth of
host families, more than 50 percent of au pairs will leave
the program if the First Circuit’s decision is replicated
elsewhere.
In other words, there is no time or ability to delay
consideration of this issue; the foreign policy effects of the
First Circuit’s decision have been felt already by au pair
program participants. The First Circuit’s decision should
be reviewed now, to reverse course before additional
damage is done.

16
CONCLUSION
The First Circuit’s decision, by ignoring the inherent
contradictions between state law, the applicable federal
law and regulations, and the underlying purpose of
the U.S. State Department’s program, risks imminent
damage to the au pair program and its foreign policy goal
of cultural exchange.
The petition for a writ of certiorari should be granted.
Dated: March 2020
Thomas B. Quinn
Nathan A. Huey
Gordon Rees Scully
Mansukhani LLP
555 Seventeenth Street,
Suite 3400
Denver, CO 80202
(303) 534-5160

Leslie A. Benitez
Counsel of Record
Gordon Rees Scully
Mansukhani LLP
816 Congress Avenue,
Suite 1510
Austin, TX 78701
(512) 391-0197
lbenitez@grsm.com
Counsel for Amicus Curiae

